No. 20IN THE

Ouprente (Court of tbe ?guitar Otero
DAVID BABCOCK,
Petitioner,
v.
COMMISSIONER OF SOCIAL SECURITY,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,324 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 8, 2020.

1

1, 4‘)

Colin Case
ogan
Wilson-Epes Printing Co., Inc.

